HHS/OIG, Audit -"Effect of Staffing on Quality of Care at Nursing Facilities - Mountain View Community Living Center,"(A-04-04-04000)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Effect of Staffing on Quality of Care at Nursing Facilities - Mountain View Community Living Center," (A-04-04-04000)
February 12, 2004
Complete
Text of Report is available in PDF format (357 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Mountain View was in compliance with Federal and
State staffing laws and regulations for nursing homes.  We found, with minor exceptions, that Mountain View complied
with Federal and State staffing laws and regulations.  For one direct care employee, Mountain View did not comply
with the State background check requirement.  We also noted differences in the direct care hours per resident per
day that we calculated and the hours of care reported in the Nursing Home Compare website.  Mountain View agreed to
take corrective action to assure that it obtains background checks on all new employees and prohibits employees from working
directly with the residents if the background checks are not received by the facility.  Mountain View also agreed
to establish a control to independently confirm the validity of the direct care hours that are provided to the Georgia
State Survey Agency for input into the Nursing Home Compare website.